                       National Archives and Records Administration
                                                                                                 8601 Adelphi Road
                                                                                College Park, Maryland 20740-6001


Date 	      January 16,2009
RepJyto
Attn of 	   Office oflnspector General (OIG)

Subject 	   Advisory Report No. 09-07, Omission of Classified Electronic Records From the Executive
            Office 'of the President System

To 	        Adrienne Thomas, Acting Archivist of the United States (N)

            The purpose of this report is to advise you of the current status of the handling of classified
            electronic records from the George W. Bush administration by the Executive Office ofthe
            President (EOP) System of the Electronic Records Archive (ERA)1. We continue in our on­
            going effort to review the National Archives and Records Administration's (NARA)
            development and implementation of the ERA system. This initiative focuses on assessing the
            current status ofthe ERA program and determining whether the program (1) is meeting cost
            and schedule requirements, and (2) will be able to cost effectively meet future target
            implementation dates.

            During the course of our review, NARA removed classified records from the scope ofthe
            requirements for the EOP System. Therefore, classified records from the George W. Bush
            administration are not going to be included in the EOP System. In our opinion, this will
            negatively affect the cost and implementation schedule of the ERA project. ERA was to
            enhance NARA's ability to comply with the requirements ofthe Presidential Records Act2 by
            providing rapid ingestion of data in a permanent, secure environment and eliminating the
            need to migrate the data to new or updated systems in the future. Excluding classified
            records from the EOP System raises the following concerns:

               • 	 What are the associated costs to maintain classified electronic records in a non-ERA
                   system?
               • 	 What are the additional costs needed to develop and implement an EOP National
                   Security System (NSS)3 in the future to handle classified records?
               • 	 How will the cost and schedule ofthe overall ERA development effort be impacted?




1 The portion of ERA that will handle electronic records from the Executive Office of the President. 

2 The Presidential Records Act of 1978, 44 U.S.C. 2201-2207 governs the official records of Presidents and Vice 

Presidents created or received after January 20, 1981. 

3 National Security Systems (NSS)-intelligence systems, cryptologic activities related to national security, milltary 

command and control systems, and equipment that is an integral part of a weapon or weapons system, or is critical to the 

direct fulfillment of military or intelligence mission. 

        NARA officials stated the reasons for not including classified records in the EOP System was
                                                                                             4
        the lack of funding and the additional level of effort needed to certify and accredit a system
        with classified records.

        NARA's July 2008 ERA Program Monthly Report to Congress noted that work was being
        deferred on the NSS portion of the ERA EOP and the NSS portion will be developed as part
        of a future increment. The report also stated NSS functionality will be provided by
        replicating or migrating the existing White House classified systems to NARA, as was done
        with the Clinton records. However, the report fails to note the reasons for deferring the NSS;
        the costs for replicating or migrating, and maintaining the White House classified systems;
        and the costs and time frame for developing and implementing the NSS in ERA.

         Our review effort consisted primarily of reviewing applicable ERAlEOP documentation such
         as: the ERA contract and modifications; contractor status reports; Congressional status
         reports; EOP test plans and implementation schedules; ERA's Exhibit 3005 ; Congressional
         Budget Justifications; and interviews with responsible ERA Program Office and Presidential
         library officials. We conducted this performance audit in accordance with generally accepted
         government aUditing standards. Those standards require that we plan and perform the audit
         to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
         conclusions based on our audit objectives. We believe that the evidence obtained provides a
         reasonable basis for our findings and conclusions based on our audit objectives.

         The Presidential Records Act gives the Archivist of the United States responsibility for the
         custody, control, and preservation of presidential records upon the conclusion of a
         President's term of office. The act states that the Archivist has an affirmative duty to make
         such records available to the public as rapidly and completely as possible consistent with the
         provisions ofthe act. At the time of the last presidential transition, NARA met these
         requirements by recreating the Clinton administration's computer systems (software and
         hardware) that originally held the records and developing simple search interfaces so that
         NARA personnel could search for requested information. It took about 400 days to process
         the 2 terabytes 6 of data from the Clinton Administration. The current estimate of classified
         electronic records from the Bush administration is between 2 and 2.5 terabytes which is equal
         to or greater than the total of all electronic records received from the Clinton administration.
         Any records that cannot get ingested in a way that supports search and retrieval immediately
         after the change in administration could substantially effect the time and cost for NARA to
         comply with the Presidential Records Act.

         The Exhibit 300: Capital Asset Plan and Business Case Summary for ERA states that NARA
         must have the capability to deal with the increasing volume and complexity ofthe Bush
         administration's electronic records. NARA will immediately need the ability to respond to

4 Security certification is an assessment of the management, operational, and technical security controls in an information
system to determine the extent to which the controls are implemented correctly, operating as intended, and producing the
desired outcome. Security accreditation is the official management decision given by a senior agency official to
authorize operation of an information system and to explicitly accept the risk to agency operations, agency assets, or
individuals based on the implementation of an agreed-upon set of security controls.
5 Agencies develop an Exhibit 300 to justify each request for a major information technology investment.
6 A terabyte is about 1 trillion bytes or about 1,000 gigabytes.




                                                            2
                                     National Archives and Records Administration
time sensitive and often high visibility special access requests for these records. Such special 

access requests come from former and incumbent Presidents, the Courts, and Congress. 

NARA must ensure the right technologies and procedures are in place to accept, 

appropriately process and preserve some of America's most historically significant, and often 

highly classified electronic records from the Bush Presidency. 


At the end of previous administrations, NARA acquired electronic records on an ad hoc 

basis, essentially migrating systems as is to NARA using the same technology used in the 

White House whenever possible. This methodology has several disadvantages: 


      •	


      •	



      •	




The Exhibit 300 also described the benefits of using ERA to ingest the electronic records of
the current Bush administration including:

      •	


      •	



      •	
additional level of effort needed to certify and accredit a system with classified records. The
ERA Program Office has not responded to inquiries related to the funding issue. When asked
how the classified electronic records, that will inevitably come to NARA from the White
House, would be handled a NARA official told us the majority ofthese records would be
transferred to NARA on USB drives and a standalone server. It is intended that the data will
be in a neutral format and will be searchable using included software, which NARA will
have to license. She added the certification of a stand alone system, such as the one created
for Clinton's records, was deemed to be a more straightforward and timely process than the
certification of a classified EOP System.

By excluding classified records from the scope of the EOP System, we are concerned with
the associated costs to maintain classified electronic records in a non-ERA system, the
additional costs needed to develop and implement an EOP NSS, and the impact to the cost
and schedule of the overall ERA development effort.

If you have any questions concerning the information presented in this status report, please e­
mail Mr. James Springs or me, or call us at extension 73000.




parus2vP
Inspector General


cc: NH (M. Morphy)




                                             4
                        National Archives and Records Administration
